           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  ADMINISTRATIVE COSTS CLAIMED
   BY THE STATE OF WASHINGTON
      DIVISION OF DISABILITY
     DETERMINATION SERVICES

    September 2003   A-15-02-12025




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY

MEMORANDUM
Date:   September 3, 2003                                                  Refer To:

To:     Carl L. Rabun
        Regional Commissioner
         Seattle

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the State of Washington Division of Disability
        Determination Services (A-15-02-12025)


        OBJECTIVES
        The objectives of our audit of the Washington Division of Disability Determination
        Service (WA-DDDS) were to:

        • evaluate the adequacy of the internal controls over the accounting and reporting of
          administrative costs claimed and the draw down of Social Security Administration
          (SSA) funds to determine whether the controls were sufficient to ensure the proper
          accounting and reporting of administrative costs, as well as draw down of funds;

        • determine whether costs claimed on the State Agency Report of Obligations for SSA
          Disability Programs (Form SSA-4513) for the period October 1, 1997 through
          September 30, 2000, were allowable and properly allocated; and

        • determine whether the aggregate of the SSA funds drawn down agreed with total
          expenditures for Fiscal Years (FY) 1998 through 2000.

        BACKGROUND
        The Disability Insurance (DI) program was established in 1956 under Title II of the
        Social Security Act (Act). The program provides a benefit to wage earners and their
        families in the event the wage earner becomes disabled. The Supplemental Security
        Income (SSI) program was created as a result of the Social Security Amendments of
        1972 with an effective date of January 1, 1974. SSI (Title XVI of the Act) provides a
        nationally uniform program of income to financially needy individuals who are aged,
        blind, and/or disabled.
Page 2 – Carl L. Rabun

SSA is primarily responsible for implementing policies governing the development of
disability claims under the DI and SSI programs. Disability determinations under both
DI and SSI are performed by Disability Determination Services (DDS) in each State
according to Federal regulations.1 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence
is available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase consultative medical examinations,
x-rays, and laboratory tests to supplement evidence obtained from the claimants’
physicians or other treating sources.

SSA pays the DDS for 100 percent of allowable expenditures. Each year, SSA
approves a DDS budget. Once approved, the DDS withdraws Federal funds through
the Department of the Treasury’s (Treasury) Automated Standard Application for
Payments system. Cash drawn from the Treasury to pay for program expenditures is to
be drawn according to Federal regulations and in accordance with intergovernmental
agreements entered into by Treasury and the States under the authority of the Cash
Management Improvement Act (CMIA).2 At the end of each fiscal quarter, each DDS
submits to SSA a Form SSA-4513 to account for program disbursements and
unliquidated obligations.

The designated agency for the State of Washington is the WA-DDDS, a division within
the Washington Department of Social and Health Services (WA-DSHS). Parent
agencies, such as WA-DSHS, often provide administrative services (accounting,
purchasing, personnel, etc.) to the State designated DDS agency. SSA reimburses
each DDS for 100 percent of the allowable expenditures reported quarterly on
Form SSA-4513.

SCOPE AND METHODOLOGY
To accomplish our objectives, we obtained evidence to evaluate recorded financial
transactions in terms of their being allowable under Office of Management and Budget
(OMB) Circular A-87, Cost Principles for State, Local and Indian Tribal Governments,
and appropriateness as defined by SSA’s Program Operations Manual System (POMS).

We reviewed the administrative costs totaling $75,826,448 reported for the period
October 1, 1997 through September 30, 2000, as of March 31, 2001. This amount
included costs associated with SSA’s Automation Investment Funds and Information
Technology System funding activities.




1
    42 USC § 421; 20 Code of Federal Regulations (C.F.R.), part 404, subpart Q, and part 416, subpart J.
2
    31 C.F.R. Part 205 and Pub L. No. 101-453.
Page 3 – Carl L. Rabun

We also:

•   reviewed applicable Federal regulations and pertinent parts of SSA’s POMS, section
    DI 39500, DDS Fiscal and Administrative Management, and other instructions
    pertaining to administrative costs incurred by WA-DDDS and the draw down of SSA
    funds covered under the CMIA;

•   interviewed WA-DSHS and WA-DDDS staff;

•   documented our understanding of the WA-DSHS’ and WA-DDDS’ systems of
    internal controls over the accounting and reporting of administrative costs;

•   evaluated and tested internal controls regarding accounting and financial reporting;

•   traced the administrative expenditures WA-DDDS reported on Forms SSA-4513 to
    its accounting records;

•   documented our understanding of the WA-DSHS’ procedures and internal controls
    for drawing down SSA funds;

•   analyzed WA-DSHS’ draw down of SSA funds and their reconciliation with reported
    expenditures;

•   reviewed the Washington State auditors’ Single Audit reports and related working
    papers;

•   conducted a physical inventory of computer equipment items SSA provided to
    WA-DDDS during our audit period; and

•   reviewed a random sample of 400 cases of other non-personnel and medical costs
    for FYs 1999 through 2000. We reviewed an additional judgmental sample of
    305 cases of other non-personnel costs, furnishings, rentals, equipment and
    software, communications, journal vouchers, and medical costs for FYs 1998
    through 2000.

To meet the objectives of our review, we assessed the reliability of computer processed
data produced by the WA-DDDS administrative system.

As a result of our audit work, described in the bullets above, we determined that the
data was sufficiently reliable given the audit objectives and intended use and should not
lead to incorrect or unintentional conclusions.

We performed field work at the WA-DSHS in Lacy, Washington, the State Auditor’s
Office in Olympia, Washington, and the WA-DDDS’ in Tumwater, Renton and
Page 4 – Carl L. Rabun

Spokane, Washington. We conducted our audit from July 2001 through August 2002 in
accordance with generally accepted government auditing standards.

RESULTS OF REVIEW
We have concluded that the WA-DDDS generally complied with laws, regulations,
policies, and procedures governing the recording and reporting of expenditures and
obligations under Titles II and XVI of the Act. While we found no significant problems,
we did identify four compliance issues. These issues were: 1) obligations reported in
wrong FYs; 2) overstated unliquidated obligations; 3) failure to maintain required
inventory records; and 4) controls lacking to ensure effective cash management.

OBLIGATIONS REPORTED IN THE WRONG FY

During our examination of administrative expenditures incurred and claimed for the
period under audit, we identified $61,594 in expenditures recorded as building
improvements, equipment and furniture, which were incurred in FY 1999, but recorded
in FY 1998.

31 U.S.C. §1502 (a) provides that:

       “The balance of an appropriation or fund limited for obligation to a definite
       period is available only for payment of expenses properly incurred during
       the period of availability…the appropriation or fund is not available for
       expenditure for a period beyond the period otherwise authorized by law.”

Funds provided under Titles II and XVI of the Act for DDSs are taken out of SSA’s
Limitation and Administrative Expense account and are to be obligated within each
FY period.

On September 30, 1998, the SSA Seattle Regional Office (RO) provided authorization
for advanced funding to the WA-DDDS.3 The WA-DDDS in turn, used 1998 funds of
$61,594 for FY 1999 incurred costs. WA-DDDS also had expended all its funding
authority in FY 1999.

The accounting treatment used for the advanced funding was not consistent with
31 U.S.C. §1502, and necessary adjustments need to be made to re-establish obligation
authority to properly reflect expenditures incurred in the appropriate FY. Although, we
recognize that WA-DDDS closed the FY 1998 books, OMB Circular A-34, Instructions
on Budget Execution section 11.64 allows funds to be provided from an unexpired
appropriation that is available for the same purpose as the closed account.


3
 Advanced funding are those funds provided for an obligation that takes place in a subsequent FY.
4
 OMB Circular A-34 was rescinded on June 27 2002, and superceded by OMB Circular No. A-11 Part 4.
OMB Circular 34 was cited since it was applicable for the audit period.
Page 5 – Carl L. Rabun

OVERSTATED UNLIQUIDATED OBLIGATIONS

We reviewed documentation regarding the FY 1998 unliquidated obligations and were
informed that $61,617 in non-personnel costs were based on estimates. According to
POMS,5 unliquidated or unpaid obligations for supplies, equipment and other
contractual services should be supported by a commitment or promise to pay for goods
or services. Also, “…State agencies should review unliquidated obligations at least
once each month to cancel those no longer valid” as required in POMS DI 39506.203A.

We informed WA-DDDS about its invalid obligations. WA-DDDS acknowledged that
there were no obligations remaining for FY 1998 and took action to deobligate $61,617
in non-personnel costs reported as unliquidated obligations.

FAILURE TO MAINTAIN REQUIRED INVENTORY RECORDS

Washington State did not maintain inventory lists as required by Federal regulations.6
Regulations provide for the State to have title to equipment purchased for disability
purposes. The State was also responsible for maintaining equipment to include
identifying the equipment by labeling and by inventory.

SSA funded and provided WA-DDDS with 349 computers. The State did not maintain
an inventory list, and no periodic inventory of SSA distributed equipment was prepared
by the State. The lack of appropriate inventory procedures occurred because there was
uncertainty between the State and SSA as to value and ownership of the equipment.

Maintaining such records will facilitate the annual inventories and could help to detect
any stolen or misplaced equipment.

CONTROLS LACKING FOR EFFECTIVE CASH MANAGEMENT

Our audit tests call for determining whether State agencies or other responsible
jurisdictions only draw down funds in order to meet immediate funding needs in
accordance with applicable Federal Regulations.7 Our review of WA-DDDS accounting
procedures disclosed that as of March 31, 2001, $23,065,345 had been reported as
disbursed for FY 1998. However, funding totaling $16,489,306 had been drawn to fund
such disbursements. We informed WA-DDDS accounting staff of the discrepancy and
the need to perform sufficient accounting reconciliations to ensure appropriate
reimbursement when required. Based on our action, WA-DSHS drew down the funds in
September 2001.


5
    POMS DI 39506.200A, DI 39506.201E.4 and DI 39506.203A.
6
    20 CFR §§ 404.1628 and 416.1028.
7
  31 CFR §205.11(b) states “A State and a Federal Program Agency must limit the amount of funds
transferred to the minimum required to meet a State’s actual and immediate cash needs.”
Page 6 – Carl L. Rabun

CONCLUSIONS AND RECOMMENDATIONS
We concluded that the WA-DDDS generally complied with laws, regulations, policies,
and procedures governing the recording and reporting of expenditures and obligations
under Titles II and XVI of the Act. However, we identified obligations reported in wrong
FYs, overstated unliquidated obligations, a failure to maintain required inventory records
and controls lacking to ensure effective cash management.

We recommend the Regional Commissioner:

1. Instruct WA-DDDS to amend the Form SSA-4513 report to accurately reflect
   FY 1999 expenditures of $61,594, which had been inappropriately reported in
   FY 1998.

2. Coordinate formal requests with WA-DSHS to adjust obligations currently closed for
   FY 1998 to allow for Recommendation 1 to be processed.

3. Require WA-DDDS to report only valid unliquidated obligations in accordance with
   POMS.

4. Require WA-DDDS to establish inventory controls over computer equipment
   distributed by SSA in accordance with Federal regulations.

5. Require WA-DDDS to establish accounting procedures which would provide
   appropriate reconciliation of draw downs with the Form SSA-4513 report.

SSA AND WA-DDDS COMMENTS
SSA Seattle RO and WA-DDDS agreed with our recommendations. The full texts of
their comments are included at Appendices C and D, respectively.



                                                S
                                                Steven L. Schaeffer
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Washington Division of Disability Determination Services Obligations
             Reported/Allowed Fiscal Years 1998 through 2000

APPENDIX C – SSA Comments

APPENDIX D – DDDS Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act             Social Security Act
CE              Consultative Examination
CFR             Code of Federal Regulations
CMIA            Cash Management Improvement Act
DDS             Disability Determination Services
DI              Disability Insurance
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
MER             Medical Evidence of Record
OMB             Office of Management and Budget
POMS            Program Operations Manual System
RO              Regional Office
SSA             Social Security Administration
SSI             Supplemental Security Income
Treasury        Department of the Treasury
WA-DDDS         Washington Division of Disability Determination Services
WA-DSHS         Washington Department of Social and Health Services
                                                                                                                                                                                 Appendix B
                                           WASHINGTON DIVISION OF DISABILITY DETERMINATION SERVICES
                                                                OBLIGATIONS REPORTED/ALLOWED
                                                                        Fiscal Year 1998 (as of March 31, 2001)

                                                                                                                                                                                         Total
                                                          Disbursements                                                          Unliquidated Obligations                             Obligations
                             Personnel       Medical         Indirect         All Other          Total      Personnel        Medical      Indirect     All Other       Total
As Reported by State
Agency:

Personnel                    $12,454,844                                                   $12,454,844                                                                            $ 12,454,844

Medical Evidence of
Record (MER)                                 $2,362,065                                    $ 2,362,065                                                                            $ 2,362,065
Consultative Examination
(CE)                                         $4,933,044                                    $ 4,933,044                                                                            $ 4,933,044

Indirect                                                   $ 663,417                       $     663,417                                                                          $     663,417

All Other                                                                 $ 2,651,975      $ 2,651,975                                                 $ 61,617    $ 61,617       $ 2,713,592

Total Claimed by State
Agency                       $12,454,844     $7,295,109     $663,417      $ 2,651,975      $23,065,345      $          -     $     -      $     -      $ 61,617    $ 61,617       $ 23,126,962


Audit Adjustments:

1. To adjust disbursements
incurred in Fiscal Year
(FY) 1999 but reported in
FY 1998.                                                                  $     (61,594)   $     (61,594)                                                                         $      (61,594)

2. To deobligate those
amounts reported as
unliquidated obligations
determined as invalid.                                                                                                                                 $(61,617)   $(61,617)      $      (61,617)

Adjusted Claims per Audit    $12,454,844     $7,295,109     $663,417      $ 2,590,381      $23,003,751      $      -         $     -      $     -      $       -   $         -    $ 23,003,751
                                                                                                            Note: Washington Division of Disability Determination Services
                                                                                                            eliminated the reported unliquidated
                                                                                                            obligations of $61,617 after we informed it that the
                                                                                                            adjustment was necessary.
                                                                                           B-1
                                                                                                                                                                     Appendix B
                                          WASHINGTON DIVISION OF DISABILITY DETERMINATION SERVICES
                                                     OBLIGATIONS REPORTED/ALLOWED

                                                                    Fiscal Year 1999 (as of March 31, 2001)

                                                                                                                                                                             Total
                                                      Disbursements                                                       Unliquidated Obligations                        Obligations
                            Personnel       Medical      Indirect         All Other         Total     Personnel       Medical    Indirect   All Other        Total
As Reported by State
Agency:

Personnel                   $13,540,299                                               $ 13,540,299                                                                    $13,540,299

MER                                         $2,662,247                                $ 2,662,247                                                                     $ 2,662,247
CE                                          $5,597,739                                $ 5,597,739                                                                     $ 5,597,739

Indirect                                                 $740,431                     $     740,431                                                                   $     740,431

All Other                                                             $ 2,874,116     $ 2,874,116                                                                     $ 2,874,116

Total Claimed by State
Agency                      $13,540,299     $8,259,986   $740,431     $ 2,874,116     $ 25,414,832    $           -   $      -   $      -   $        -   $       -    $25,414,832

Audit Adjustments:

1. To adjust
disbursements incurred in
FY 1999 but reported in
FY 1998.                                                              $     61,594    $      61,594                                                                   $      61,594

Adjusted Claims per Audit   $13,540,299     $8,259,986   $740,431     $ 2,935,710     $ 25,476,426    $       -       $      -   $      -   $        -   $       -    $25,476,426




                                                                                      B-2
                                                                                                                                                                      Appendix B
                                          WASHINGTON DIVISION OF DISABILITY DETERMINATION SERVICES
                                                     OBLIGATIONS REPORTED/ALLOWED

                                                                      Fiscal Year 2000 (as of March 31, 2001)

                                                                                                                                                                              Total
                                                      Disbursements                                                        Unliquidated Obligations                        Obligations
                            Personnel       Medical      Indirect       All Other           Total      Personnel        Medical    Indirect   All Other       Total
As Reported by State
Agency:

Personnel                   $14,148,532                                               $14,148,532                                                                      $14,148,532

MER                                         $3,183,481                                $ 3,183,481                       $ 71,409                                       $ 3,254,890
CE                                          $4,905,335                                $ 4,905,335                       $171,543                                       $ 5,076,878

Indirect                                                 $856,230                     $     856,230                                                                    $     856,230

All Other                                                             $ 2,676,946     $ 2,676,946                                             $ 15,931                 $ 2,692,877

Total Claimed by State
Agency                      $14,148,532     $8,088,816   $856,230     $ 2,676,946     $25,770,524      $            -   $242,952   $      -   $ 15,931    $       -    $26,029,407

Audit Adjustments:

None recommended

Adjusted Claims per Audit   $14,148,532     $8,088,816   $856,230     $ 2,676,946     $25,770,524      $        -       $242,952   $      -   $ 15,931    $       -    $26,029,407




                                                                                      B-3
               Appendix C

SSA Comments
                                 SOCIAL SECURITY
MEMORANDUM
DATE:     July 28, 2003                             Refer To: S2DXG3:D3
TO:       Assistant Inspector General
          Audit

FROM:     Regional Commissioner
          Seattle Region

SUBJECT: Audit of the Administrative Costs Claimed by the Washington Disability
         Determination Services (A-15-02-12025) --- REPLY

   This responds to the draft report of the Audit of the Administrative Costs Claimed by the
   Washington Disability Determination Services (A-15-02-12025). Our response to each
   report recommendation follows:

   1. Instruct WA-DDDS to amend the Form SSA-4513 report to accurately reflect FY 1999
   expenditures of $61,594, which had been inappropriately reported in FY 1998.

   Response: We agree with this recommendation and will instruct the WA DDS to amend
   Form SSA-4513 report to accurately reflect FY 1999 expenditures of $61,594, which had
   been inappropriately reported in FY 1998.

   2. Coordinate formal requests with WA-DSHS to adjust obligations currently closed for FY
   1998 to allow for Recommendation 1 to be processed.

   Response: We agree with this recommendation and will coordinate formal requests with the
   Washington Department of Social and Health Services (DSHS) and the SSA Office of
   Finance to adjust obligations currently closed for FY 1998 to allow for Recommendation 1 to
   be processed.

   3. Require WA-DDDS to create valid unliquidated obligations in accordance with POMS.

   Response: We agree with this recommendation and will continue to require that the WA
   DDS create valid unliquidated obligations in accordance with POMS instructions.

   4. Require WA-DDDS to establish inventory control over computer equipment distributed by
   SSA in accordance with Federal regulations.

   Response: We agree with the proposed recommendation and the proposed action. The WA
   DDS is currently in the process of establishing inventory controls over computer equipment
   distributed by SSA in accordance with Federal regulations.

   5. Require WA-DDDS to establish accounting procedures which would provide appropriate
   reconciliation of draw downs with the Form SSA-4513 report.

                                              C-1
Response: We agree with this recommendation and will ask the WA DDS to work with
DSHS to establish accounting procedures that will provide appropriate reconciliation of draw
downs with the Form SSA-4513 report.

If you or your staff has any questions regarding our comments, please contact Shelly Beach,
Program Specialist, Center for Disability Operation via email at SF-Exchange or by phone at
206-615-2137.



                                     /s/ Carl L. Rabun
Cc: Director, WA DDS
    Office of Disability Programs, RMB




                                          C-2
                   Appendix D

WA-DDDS Comments
                                     STATE OF WASHINGTON

             DEPARTMENT OF SOCIAL AND HEALTH SERVICES
                       Division of Disability Determination Services
                              P.O. Box 9303, Olympia, Washington 98507-9303

MEMORANDUM

DATE:      July 28, 2003

TO:        Assistant Inspector General
           Audit

FROM:      Director
           Disability Determination Services

SUBJECT: Audit of the Administrative Costs Claimed by the Washington
         Disability Determination Services

   1. Instruct WA-DDDS to amend the Form SSA-4513 report to accurately reflect FY 1999
      expenditures of $61,594, which had been inappropriately reported in FY 1998.

        Response: We have no objections to the first or second recommendations. WA State is
        currently working with SSA Regional Office X to commence with the paper work that
        will reallocate $61,594 from FY 1998 to FY 1999.


   2. Coordinate formal requests with WA-DSHS to adjust obligations currently closed for FY 1998 to
      allow for Recommendation 1 to be processed.
        Response: Same as response to #1.

   3. Require WA-DDDS to create valid unliquidated obligations in accordance with POMS.
        Response: Recommendation #3 is stating WA State should be required to create valid
        unliquidated obligations in accordance with POMS. The Washington State accounting
        manager and staff, along with Regional Office staff, are knowledgeable regarding the
        criteria needed for valid unliquidated obligations during, and at the end of, a current fiscal
        year. Both offices are aware of what is required to create obligations and adhere to the
        POMS policies.

   4. Require WA-DDDS to establish inventory control over computer equipment distributed by SSA
      in accordance with Federal regulations.
        Response: WA State has begun the process of placing all computer equipment into the
        WA State inventory system. The computer equipment will have WA State inventory
        tags, along with SSA inventory tags. Accounting regulations state inventory should be

                                                  D-1
       recorded at lower of cost or market value. In this case, the value would be $0.00 since
       DDS funds did not purchase the equipment. However, State regulations require us to
       record inventory at purchase price or fair market value. By fulfilling this OIG request,
       the DDS computer equipment will be valued twice; once in SSA’s inventory system, and
       a second time in WA State’s inventory system.

       The draft report states on page 5, “The State did not maintain an inventory list, and no
       periodic inventory of SSA distributed equipment was prepared by the State.” It is true
       that a periodic inventory of the equipment was not performed, nor was the equipment
       tagged as WA State property. However, each office does have on file an inventory list,
       received by SSA, of PC equipment and the serial numbers associated to each piece of
       equipment.

   5. Require WA-DDDS to establish accounting procedures which would provide appropriate
      reconciliation of draw downs with the Form SSA-4513 report.
       Response: WA State DDS does not have access to ASAP, the cash draw down system.
       However, this information can be provided by our parent agency, DSHS. It is our intent
       to incorporate the cash draw down data into our reconciliation practices when completing
       and filing Form SSA-4513 reports.


The draft audit report acknowledges and identifies the OIG auditors involved. I commend them
for their professional behavior, reasonableness, and patience. They were enjoyable to work with.
However, I also feel that the WA State accounting staff are worthy of acknowledgement.
Although OIG auditors stated they intended to be as least disruptive as possible to the work
process, they consumed virtually all of my staff’s time. In conjunction with the large amount of
time dedicated to the audit, the WA State accounting staff had to perform their usual duties.
Payments still had to be made to medical facilities, and reports still had to be prepared for SSA.
The audit was extremely taxing to accounting’s work schedule. This audit was conducted by
both sides; Office of Inspector General and WA State. Our efforts were equally as important to
the outcome of the audit and this report. Therefore I feel it is necessary to also acknowledge the
WA State Staff. Those to be acknowledged are as follows:

   Janis Hughes, Financial Analyst 3
   Jennie McCloud, Medical Assistant Specialist 5




                                     /s/ Dr. Martin A. (Tony) Jones
                                         Director
                                         WA State Disability Determination Services

CC: SSA Region X
Office of Disability Programs, RMB


                                               D-2
                                                                    Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

Frederick C. Nordhoff, Director, Financial Audits, (410) 966-6676

Carl Markowitz, Deputy Director, (410) 965-9742

Acknowledgments

In addition to those named above:

    Steven Sachs, Auditor

    Suzanne Valett, Auditor

    Sigmund Wisowaty, Auditor

    Richard Wilson, Auditor

    Joe Borowy, Auditor

    Sandra Westfall, Program Analyst

    Annette DeRito, Writer/Editor
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and
the coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic planning
function and the development and implementation of performance measures required by the
Government Performance and Results Act. OEO is also responsible for performing internal
reviews to ensure that OIG offices nationwide hold themselves to the same rigorous standards
that we expect from SSA, as well as conducting investigations of OIG employees, when
necessary. Finally, OEO administers OIG’s public affairs, media, and interagency activities,
coordinates responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
